Office of Audits and Evaluations
Report No. AUD-12-006


Material Loss Review of Colorado Capital
Bank, Castle Rock, Colorado




                                   February 2012
                                    Executive Summary

                                    Material Loss Review of Colorado Capital Bank,
                                    Castle Rock, Colorado
                                                                                     Report No. AUD-12-006
                                                                                             February 2012

Why We Did The Audit
Section 38(k) of the Federal Deposit Insurance (FDI) Act, as amended by the Dodd-Frank Wall Street
Reform and Consumer Protection Act (the Financial Reform Act), provides, in general, that if the Deposit
Insurance Fund (DIF) incurs a material loss with respect to an insured depository institution, the Inspector
General of the appropriate federal banking agency shall prepare a report to that agency, reviewing the
agency’s supervision of the institution. The Financial Reform Act amends section 38(k) by increasing the
Material Loss Review (MLR) threshold from $25 million to $200 million for losses that occur for the
period January 1, 2010 through December 31, 2011. The FDI Act requires that the report be completed
within 6 months after it becomes apparent that a material loss has been incurred.

On July 8, 2011, the Colorado Division of Banking (CDB) closed Colorado Capital Bank (CCB), and the
FDIC was appointed receiver. On August 17, 2011, the FDIC notified the Office of Inspector General
(OIG) that CCB’s total assets at closing were $681.8 million and that the estimated loss to the DIF was
$283.8 million. The FDIC OIG engaged KPMG LLP (KPMG) to conduct an MLR of CCB. The audit
objectives were to (1) determine the causes of CCB’s failure and the resulting material loss to the DIF and
(2) evaluate the FDIC’s supervision of CCB, including implementation of the Prompt Corrective Action
(PCA) provisions of section 38.


Background
CCB was established in 1998 under the name of Bank West, which was a subsidiary of Bank West
Holdings Inc., Castle Rock, Colorado (BW Holdings). In August 2003, a newly formed holding
company, BankVest Inc. (BankVest), took control of BW Holdings. BankVest was the surviving entity
and had a 100-percent ownership interest in the bank. On May 15, 2005, the bank changed its name to
Colorado Capital Bank. The change in control resulted in significant changes to the composition of the
bank’s Board of Directors (Board) and senior management team. The change also resulted in a new
business strategy focused on aggressive growth through commercial real estate (CRE) lending, especially
acquisition, development, and construction (ADC) lending, in Colorado.


Audit Results
Causes of Failure and Material Loss

CCB failed primarily because its Board and management did not effectively manage the risks associated
with the institution’s aggressive loan growth and resulting heavy concentrations in CRE and ADC loans.
Notably, the bank did not implement adequate concentration risk management controls, such as prudent
ADC loan limits or portfolio-level stress testing. CCB also failed to maintain capital at levels that were
commensurate with its risk profile, reducing the bank’s ability to absorb losses in the event of a sustained
downturn in the real estate market. CCB relied extensively on non-core funds, especially brokered
deposits, Internet deposits, Federal Home Loan Bank advances, and capital injections from its parent
holding company, to support its loan growth. Access to non-core funding became limited when the
bank’s financial condition deteriorated, straining the institution’s liquidity position. Finally, lax lending
practices, particularly when the institution’s lending markets declined, contributed to CCB’s problems.


                                  To view the full report, go to www.fdicig.gov
                                      Material Loss Review of Colorado Capital Bank,
   Executive Summary
                                      Castle Rock, Colorado
                                                                                     Report No. AUD-12-006
                                                                                             February 2012


Specifically, the Board and management failed to promptly recognize deterioration in the bank’s loan
portfolio and took certain actions that further elevated CCB’s risk profile.

During 2007, economic conditions in CCB’s primary lending markets began to decline. By year-end
2009, the quality of CCB’s loan portfolio had deteriorated significantly, with the majority of problems
centered in ADC loans. Further deterioration occurred in 2010 and 2011. The associated provisions for
loan losses depleted CCB’s earnings, eroded its capital, and strained its liquidity. The CDB closed CCB
on July 8, 2011 because the institution was unable to raise sufficient capital to support its operations.

The FDIC’s Supervision of CCB

The FDIC, in coordination with the CDB, provided ongoing supervisory oversight of CCB through
regular onsite examinations, visitations, and various offsite monitoring activities. Through its supervisory
efforts, the FDIC identified risks in the bank’s operations and brought these risks to the attention of the
institution’s Board and management through examination and visitation reports, correspondence, and
supervisory actions. Such risks included concerns with Board and management oversight, the bank’s
heavy concentrations in CRE and ADC loans, less than satisfactory earnings, reliance on non-core
funding sources, and weak loan underwriting and credit administration practices.

Like many institutions that failed in recent years, CCB developed a significant exposure to CRE and ADC
loans at a time when the bank’s financial condition and lending markets were generally favorable. This
exposure made the bank vulnerable to a sustained downturn in the real estate market. In retrospect, a
more forward-looking supervisory approach to the risk profile and weak risk management practices
identified by examiners during earlier examinations may have been warranted, considering CCB’s
significant exposure to CRE and ADC loans and their associated vulnerability to economic cycles, rapid
loan growth supported by non-core funds, lack of concentration risk management practices, and capital
levels in relation to its risk profile. Examiners made a number of suggestions and recommendations to
address CCB’s risk management practices during the 2004-2008 examinations. However, the actions
taken by the Board and management to address the suggestions and recommendations were not adequate.
In addition, the FDIC and CDB issued a Memorandum of Understanding in July 2009 and a Consent
Order in September 2010. However, by that time, the institution’s lending markets were rapidly
deteriorating, making remedial efforts difficult.

The FDIC has taken a number of actions to enhance its supervision program based on the lessons learned
from failures during the financial crisis. Such actions include instituting a training initiative for
examiners on forward-looking supervision and issuing additional supervisory guidance on CRE and ADC
concentrations and funds management practices.

Based on the supervisory actions taken with respect to CCB, the FDIC properly implemented the
applicable PCA provisions of section 38.


Management Response
Subsequent to the issuance of KPMG’s draft report, officials in the FDIC’s Division of Risk Management
Supervision (RMS) provided additional information for KPMG’s consideration, and KPMG revised its
report to reflect this information, as appropriate. On February 16, 2012, the RMS Director provided a

                                  To view the full report, go to www.fdicig.gov
                                     Material Loss Review of Colorado Capital Bank,
   Executive Summary
                                     Castle Rock, Colorado
                                                                                     Report No. AUD-12-006
                                                                                             February 2012


written response to a draft of this report. In the response, the RMS Director reiterated the causes of
failure and the supervisory activities described in the report. Further, RMS stated that it has recognized
the threat that institutions with high-risk profiles, such as CCB, pose to the DIF and issued to FDIC-
supervised institutions a 2008 Financial Institution Letter (FIL), entitled, Managing Commercial Real
Estate Concentrations in a Challenging Environment. This FIL re-emphasized the importance of robust
credit risk management practices for institutions with concentrated CRE exposures and set forth broad
supervisory expectations. Additionally, RMS issued a 2009 FIL, entitled, The Use of Volatile or Special
Funding Sources by Financial Institutions That are in a Weakened Condition. According to RMS, this
FIL heightened its supervision of institutions with aggressive growth strategies or excessive reliance on
volatile funding sources.




                                 To view the full report, go to www.fdicig.gov
Federal Deposit Insurance Corporation                                               Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                  Office of Inspector General




DATE:                                     February 17, 2012

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Risk Management Supervision


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Deputy Inspector General for Audits and Evaluations

SUBJECT:                                  Material Loss Review of Colorado Capital Bank,
                                          Castle Rock, Colorado (Report No. AUD-12-006)


The subject final report is provided for your information and use. The report does not contain
recommendations, thus a response was not required. However, the Division of Risk
Management Supervision provided a written response on February 16, 2012. We incorporated
the response into Part II of the final report.

If you have questions concerning the report, please contact me at (703) 562-6352 or Mark
Mulholland, Assistant Inspector General for Audits, at (703) 562-6316. We appreciate the
courtesies extended to the audit and contractor staff.

Attachment
                           Table of Contents

Part I

   Report by KPMG LLP                                          I-1
   Material Loss Review, Colorado Capital Bank, Castle Rock,
   Colorado

Part II

   OIG Evaluation of Management Response                       II-1

   Corporation Comments                                        II-2
      Part I

Report by KPMG LLP
               Material Loss Review
               Colorado Capital Bank
               Castle Rock, Colorado




Prepared for the
Federal Deposit Insurance Corporation
Office of Inspector General



KPMG LLP
1676 International Drive
McLean, VA 22102
                            Table of Contents


Executive Summary                                                          I-1
Why We Did the Audit                                                       I-4
Background                                                                 I-4
Causes of Failure and Material Loss                                         I-5
  Board and Management Oversight                                            I-6
  Aggressive Growth and CRE and ADC Loan Concentrations                     I-7
  Funding Strategies                                                      I-11
  Loan Underwriting, Credit Administration, and Related Monitoring        I-13
The FDIC’s Supervision of Colorado Capital Bank                           I-15
  Supervisory History                                                     I-15
  Supervisory and Enforcement Actions                                     I-16
  Offsite Monitoring                                                      I-19
  Supervisory Response to CCB’s Board and Management Oversight            I-21
  Supervisory Response to CCB’s Aggressive Growth and CRE and ADC
     Loan Concentrations                                                  I-23
  Supervisory Response to CCB’s Funding Strategies                        I-25
  Supervisory Response to Loan Underwriting, Credit Administration, and
     Related Monitoring                                                   I-26
  Implementation of PCA                                                   I-27
  Supervisory Lessons Learned                                             I-29
Appendices
1. Objectives, Scope, and Methodology                                     I-31
2. Glossary of Terms                                                      I-35
3. Acronyms                                                               I-39
Tables
1. Selected Financial Information for CCB, 2006-2010                        I-5
2. Total Risk-Based Capital Ratios Compared to Peer Group                 I-11
3. Examinations and Visitations for CCB                                   I-16
4. CCB’s Offsite Review History                                           I-20
5. Examiner Comments Pertaining to Board and Management Oversight         I-21
6. Examiner Comments Pertaining to Loan Growth and Concentrations         I-24
7. CCB’s Funding Sources                                                  I-26
8. CCB’s Capital Levels                                                   I-28
Figures
1. Composition and Growth of CCB’s Loan Portfolio, 2005-2010              I-8
2. CCB’s ADC Concentration as a Percentage of Total Capital Compared to
   Peer Group                                                             I-9
3. CCB’s Net Non-Core Funding Dependence Ratio Compared to Peer
   Group                                                                I-12
                             KPMG LLP
                             1676 International Drive
                             McLean, VA 22102




February 17, 2012

Executive Summary


Stephen M. Beard
Deputy Inspector General for Audits and Evaluations
Federal Deposit Insurance Corporation
3501 Fairfax Drive
Arlington, VA 22226

Material Loss Review Report on the Failure of Colorado Capital Bank, Castle Rock,
Colorado

Dear Mr. Beard:

The FDIC Office of Inspector General (OIG) contracted with KPMG LLP (KPMG) to
conduct a material loss review (MLR) of Colorado Capital Bank (CCB), Castle Rock,
Colorado. This performance audit report details the results of our review. The objectives
of this performance audit were to (1) determine the causes of CCB’s failure and the
resulting material loss to the Deposit Insurance Fund (DIF) and (2) evaluate the FDIC’s
supervision of CCB, including the FDIC’s implementation of the Prompt Corrective
Action (PCA) provisions of section 38 of the Federal Deposit Insurance Act (FDI Act).

Our report contains no recommendations. Instead, as major causes, trends, and common
characteristics of institution failures are identified in MLRs, the FDIC OIG communicates
those to FDIC management for its consideration. As resources allow, the FDIC OIG
conducts more comprehensive reviews of specific aspects of the FDIC’s supervision
program and makes recommendations as warranted. A brief summary of the results of our
review of CCB follows.

Causes of Failure
CCB failed primarily because the bank’s Board of Directors (Board) and management did
not effectively manage the risks associated with the institution’s aggressive loan growth
and resulting heavy concentrations in commercial real estate (CRE) and acquisition,
development, and construction (ADC) loans. Notably, the bank did not implement
adequate concentration risk management controls, such as prudent ADC loan limits or
portfolio-level stress testing. CCB also failed to maintain capital at levels that were
commensurate with its risk profile, reducing the bank’s ability to absorb losses in the event
of a downturn in the real estate market. CCB relied extensively on non-core funds,
especially brokered deposits, Internet deposits, Federal Home Loan Bank (FHLB)
advances, and capital injections from its parent holding company to support its loan
growth. Access to non-core funding became limited when the bank’s financial condition
                                                       I-1
                             KPMG LLP is a Delaware limited liability partnership,
                             the U.S. member firm of KPMG International Cooperative
                             (“KPMG International”), a Swiss entity.
deteriorated, straining the institution’s liquidity position. Finally, lax lending practices,
particularly when the institution’s lending markets declined, contributed to CCB’s
problems. Specifically, the Board and management failed to promptly recognize
deterioration in the bank’s loan portfolio and took certain actions that further elevated
CCB’s risk profile.

Evaluation of Supervision
The FDIC, in coordination with the CDB, provided ongoing supervisory oversight of CCB
through regular onsite examinations, visitations, and various offsite monitoring activities.
Through its supervisory efforts, the FDIC identified risks in the bank’s operations and
brought these risks to the attention of the institution’s Board and management through
examination and visitation reports, correspondence, and supervisory actions. Such risks
included concerns with Board and management oversight, the bank’s heavy concentrations
in CRE and ADC loans, less than satisfactory earnings, reliance on non-core funding
sources, and weak loan underwriting and credit administration practices.

Like many other institutions that failed in recent years, CCB developed a significant
exposure to CRE and ADC loans at a time when the bank’s financial condition and lending
market were generally favorable. This exposure made CCB vulnerable to a sustained
downturn in the real estate market. As described in the report, a more forward-looking
assessment of CCB’s risk profile and management practices during the 2006 and 2008
examinations may have been prudent. In addition, it is our view that while earlier
examination ratings reflected the financial condition of the bank, the ratings assigned at
these earlier examinations did not appear to fully reflect the risks present at that time.

A general lesson learned with respect to weak risk management practices is that early
supervisory intervention is prudent, even when an institution is considered Well
Capitalized and has a relatively low or moderate level of classified assets. A stronger
supervisory tenor may have influenced CCB to curb its ADC lending, strengthen its risk
management controls, and hold more capital before its lending markets deteriorated.

Examiners made a number of suggestions and recommendations to address CCB’s risk
management practices during earlier examinations. However, the actions taken by the
Board and management to address the suggestions and recommendations were not
adequate. In addition, the FDIC and CDB issued a Memorandum of Understanding
(MOU) in July 2009 and a Consent Order in September 2010. However, by that time, the
institution’s lending markets were rapidly deteriorating, making remedial efforts difficult.

The FDIC informed us that it has taken a number of actions to increase its supervisory
attention to banks with risk profiles similar to CCB. Such actions include instituting a
training initiative for examiners on forward-looking supervision and issuing additional
supervisory guidance on CRE and ADC concentrations and funds management practices.




                                              I-2
Prompt Corrective Action

Section 38 of the FDI Act, Prompt Corrective Action, establishes a framework of
mandatory and discretionary supervisory actions pertaining to all insured depository
institutions. Based on the supervisory actions taken with respect to CCB, the FDIC
properly implemented the applicable PCA provisions of section 38.

We conducted our performance audit in accordance with Generally Accepted Government
Auditing Standards (GAGAS). These standards require that we plan and conduct the
performance audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

The information included in this report was obtained during our fieldwork, which occurred
during the period October 2011 through January 2012.


Very truly yours,




                                            I-3
Why We Did the Audit
Section 38(k) of the FDI Act, as amended by the Dodd-Frank Wall Street Reform and
Consumer Protection Act (the Financial Reform Act), provides, in general, that if the DIF
incurs a material loss with respect to an insured depository institution, the Inspector
General of the appropriate federal banking agency shall prepare a report to that agency,
reviewing the agency’s supervision of the institution. The Financial Reform Act amends
section 38(k) by increasing the MLR threshold from $25 million to $200 million for losses
that occur for the period January 1, 2010 through December 31, 2011. The FDI Act
requires that the report be completed within 6 months after it becomes apparent that a
material loss has been incurred.

On July 8, 2011, the CDB closed CCB, and the FDIC was appointed receiver. The FDIC’s
Division of Finance notified the OIG on August 17, 2011 that CCB’s total assets at closing
were $681.8 million and that the estimated loss to the DIF was $283.8 million, (or 41.6
percent of CCB’s total assets). The FDIC OIG engaged KPMG to conduct an MLR of
CCB. The performance audit objectives were to (1) determine the causes of CCB’s failure
and the resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of CCB,
including the FDIC’s implementation of the PCA provisions of section 38 of the FDI Act.
Appendix 1, Objectives, Scope, and Methodology, describes the procedures used by
KPMG to conduct this performance audit.1 In addition, Appendix 2 provides a glossary of
terms, and Appendix 3 contains a list of acronyms used in this report.

Background
CCB was established in 1998 under the name of Bank West, which was a subsidiary of
Bank West Holdings Inc., Castle Rock, Colorado (BW Holdings). In August 2003, a
newly formed holding company named BankVest Inc., Castle Rock, Colorado (BankVest),
took control of BW Holdings. The individual who led the BankVest investor group
assumed the role of President and Chief Executive Officer (CEO) for the bank. On
January 1, 2004, BankVest merged with BW Holdings. BankVest was the surviving entity
and had a 100-percent ownership interest in the bank. On May 15, 2005, the bank changed
its name to CCB.

The change in control resulted in significant changes to the composition of the bank’s
Board of Directors (Board) and senior management team. The change also resulted in a
new business strategy that focused on aggressive growth through CRE lending, especially
ADC lending, in Colorado. When the bank’s financial condition deteriorated, several
executive officers and Board members resigned. Most notably, the President and CEO,
who also served as a Board member, resigned effective November 1, 2010. The individual
selected to replace the outgoing President and CEO subsequently resigned effective
April 7, 2011. From April 2011 to July 8, 2011, an executive team consisting of the Chief
Credit Officer, Chief Operations Officer, and a consultant assumed the responsibilities of


1
 In conducting this performance audit and preparing the report, KPMG relied primarily on information
provided by the OIG and the FDIC’s Division of Risk Management Supervision (RMS).

                                                   I-4
the President and CEO. Table 1 provides details on CCB’s financial condition as of
December 31, 2010 and for the 4 preceding years.

Table 1: Selected Financial Information for CCB, 2006-2010
 Financial Data ($000s)       12/31/2010   12/31/2009      12/31/2008   12/31/2007   12/31/2006
 Total Assets                  $909,251     $848,406        $825,494     $635,593     $370,628
 Total Loans                   $657,701     $732,852        $756,322     $565,823     $330,436
 Total Deposits                $856,628     $761,849        $648,996     $516,824     $324,895
 Brokered Deposits/Total
 Liabilities                   25.64%        42.05%         34.44%       27.86%       38.55%
 FHLB Advances                 $15,000       $15,000        $84,692      $45,948      $10,505
 Past Due Ratio                15.70%         1.49%          0.84%        0.01%        0.02%
 ADC Loans/Total Capital        1103%         485%           525%         552%         474%
 CRE Loans/Total Capital        1340%         605%           639%         607%         565%
 Net Interest Margin            3.40%         4.25%          4.15%        5.49%        6.10%
 Return on Average Assets      (5.39%)       (1.81%)         0.45%        0.56%        0.80%
 Tier 1 Leverage Capital        2.29%         8.01%          9.37%        8.72%        8.67%
 Total Risk-Based Capital       4.83%        10.72%         11.13%       10.03%       10.59%
Source: Uniform Bank Performance Reports (UBPR) for CCB.


Causes of Failure and Material Loss
CCB failed primarily because its Board and management did not effectively manage the
risks associated with the institution’s aggressive loan growth and resulting heavy
concentrations in CRE and ADC loans. Notably, the bank did not implement adequate
concentration risk management controls, such as prudent ADC loan limits or portfolio-
level stress testing. CCB also failed to maintain capital at levels that were commensurate
with its risk profile, reducing the bank’s ability to absorb losses in the event of a sustained
downturn in the real estate market. CCB relied extensively on non-core funds, especially
brokered deposits, Internet deposits, FHLB advances, and capital injections from its parent
holding company to support its loan growth. Access to non-core funding became limited
when the bank’s financial condition deteriorated, straining the institution’s liquidity
position. Finally, lax lending practices, particularly when the institution’s lending markets
declined, contributed to CCB’s problems. Specifically, the Board and management failed
to promptly recognize deterioration in the bank’s loan portfolio and took certain actions
that further elevated CCB’s risk profile.

During 2007, economic conditions in CCB’s primary lending markets began to decline.
By year-end 2009, the quality of CCB’s loan portfolio had deteriorated significantly, with
the majority of problems centered in ADC loans. Further deterioration occurred in 2010
and 2011. The associated provisions for loan losses depleted CCB’s earnings, eroded its
capital, and strained its liquidity. The CDB closed CCB on July 8, 2011 because the
institution was unable to raise sufficient capital to support its operations.


                                               I-5
Board and Management Oversight

According to the FDIC’s Risk Management Manual of Examination Policies (Examination
Manual), the Board has overall responsibility and authority for formulating sound policies
and objectives for the institution and for effectively supervising the institution’s affairs.
Executive officers, such as the President and CEO, have primary responsibility for
managing the day-to-day operations and affairs of the bank. Further, ensuring appropriate
corrective actions to regulatory concerns is a key responsibility of the Board.

Following the 2003 change in control, CCB’s Board and executive management team
implemented a business strategy that exposed the bank to considerable risk and ultimately
led to its failure. As discussed in the Aggressive Growth and CRE and ADC Loan
Concentrations section of the report, CCB’s Board and management implemented a rapid
growth strategy centered in ADC lending without adequate concentration risk management
controls, such as prudent loan exposure limits and loan portfolio stress testing. The
significant costs associated with CCB’s aggressive expansion resulted in earnings that
were insufficient to support the bank’s operations and augment capital. As a result, CCB
relied extensively on its parent holding company for capital injections to support loan
growth. Notwithstanding these capital injections, the Board and management did not
maintain capital levels commensurate with the bank’s growing risk profile.

As discussed in the Funding Strategies section of the report, the Board and management
placed considerable reliance on potentially volatile non-core funding sources, such as
brokered deposits, to fuel loan growth. Further, as discussed in the Loan Underwriting,
Credit Administration, and Related Monitoring section of the report, the Board and
management did not ensure adequate lending practices when the real estate market
declined or recognize deterioration in the loan portfolio in a timely manner. In addition,
the Board and management took certain actions during this period that further elevated
CCB’s risk profile, such as implementing the Asset Repositioning Program (described
later).

Further, during examinations conducted from 2004 to 2011, the regulators noted several
apparent violations of banking laws and contraventions with policy. For example:

      At the 2004, 2008, 2009, and 2010 examinations, examiners noted a combined
       total of 10 appraisal violations of Part 323 of the FDIC Rules and Regulations.

      The 2010 joint examination noted an apparent conflict of interest concerning one
       of the bank’s approved real estate appraisers. Specifically, the approved
       appraiser was the husband of CCB’s President of the mortgage department.

      At the 2010 joint examination, examiners noted that the bank was in apparent
       violation of the Interagency Policy Statement on the Allowance for Loan and Lease
       Losses (ALLL).




                                             I-6
Overall, the extent and repetition of some of these violations and contraventions provide
further evidence of CCB’s inadequate management and Board oversight that led to the
failure of the bank.

In addition, according to the April 2010 joint examination report, CCB’s internal controls,
audit procedures, and compliance with laws and regulations were inadequate, and a
“culture of non-compliance” was pervasive throughout the institution.

Aggressive Growth and CRE and ADC Loan Concentrations

Following the change in control that took place in August 2003, CCB embarked on an
aggressive growth strategy centered in CRE (and particularly ADC) loans. However,
CCB’s Board and management did not effectively manage the risks associated with the
rapid growth and ensuing CRE and ADC loan concentrations. A description of the
institution’s strategy and risk management practices in this area follows.

Aggressive Loan Growth

During the 4-year period ended December 31, 2008, CCB grew its loan portfolio from
$186.2 million to $756.3 million (or more than 300 percent). Contributing to the growth
during this period was an increase in ADC loans from $75.1 million (or 40 percent of the
loan portfolio) to $435.3 million (or 57 percent of the loan portfolio). CCB’s ADC
lending included residential speculative construction,2 residential pre-sold construction,
non-owner occupied commercial construction, and residential land development in
Colorado. The elevated exposure to ADC loans made the bank vulnerable to a sustained
downturn in the real estate market. Figure 1 illustrates the composition and growth of the
loan portfolio in the years preceding the bank’s failure.




2
  Speculative construction lending involves the financing of projects for which a buyer has not yet been
identified.

                                                     I-7
Figure 1: Composition and Growth of CCB’s Loan Portfolio, 2005-2010

                                                                   $756.3     $732.9
                              $800
                              $700                                                     $657.7
                                                         $565.8
     Gross Loans and Leases

                              $600
                              $500
         ($ in millions)



                              $400            $330.5
                              $300
                                     $186.2
                              $200
                              $100
                               $0
                                     2005     2006     2007       2008      2009       2010
                                                          Year-End

                                      2005       2006         2007          2008         2009    2010

        All Other Loans               $89.7     $151.3        $233.0        $226.2      $269.8   $268.0
        Other CRE                     $21.4      $23.0        $29.4         $94.8       $89.9    $68.4
        ADC                           $75.1     $156.2        $303.4        $435.3      $373.2   $321.3

Source: KPMG analysis of Reports of Condition and Income (Call Reports) for CCB.

CRE and ADC Loan Concentrations

In December 2006, the FDIC, the Office of the Comptroller of the Currency, and the
Board of Governors of the Federal Reserve System issued guidance, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance). The purpose of the Joint Guidance was to reinforce existing regulations
and guidelines for real estate lending and safety and soundness. The Joint Guidance states
that the federal banking agencies have observed an increasing trend in the number of
institutions with concentrations in CRE loans and noted that rising CRE concentrations
could expose institutions to unanticipated earnings and capital volatility in the event of
adverse changes in the general CRE market. The Joint Guidance defines criteria that the
agencies use to identify institutions potentially exposed to significant CRE concentration
risk, but it does not establish specific CRE lending limits. According to the Joint
Guidance, an institution that has experienced rapid growth in CRE lending, has notable
exposure to a specific type of CRE, or is approaching or exceeds the following supervisory
criteria may be identified for further supervisory analysis of the level and nature of its
CRE concentration risk:

               Total CRE loans representing 300 percent or more of total capital where the
                outstanding balance of the institution’s CRE loan portfolio has increased by
                50 percent or more during the prior 36 months; or
                                                           I-8
                              Total loans for construction, land development, and other land (referred to in this
                               report as ADC) representing 100 percent or more of total capital.

In addition, in March 2008, the FDIC issued Financial Institution Letter (FIL)-22-2008,
Managing CRE Concentrations in a Challenging Environment, which reiterated broad
supervisory expectations with regard to managing risks associated with CRE and ADC
concentrations. Specifically, the guidance re-emphasized the importance of strong capital
and loan loss allowance levels and robust credit risk management practices.

Figure 2 illustrates the trend in CCB’s ADC loans relative to total capital as compared to
the bank’s peer group average.3 As reflected in the figure, CCB’s ADC loan concentration
significantly exceeded the levels defined in the Joint Guidance as warranting additional
supervisory analysis. In addition, the banks’ CRE and ADC loan concentrations as a
percentage of total capital substantially exceeded peer group averages. Further, according
to the FDIC’s September 2008 visitation report, CCB had the largest concentration in
construction and development loans and the second largest concentration in CRE loans
among insured institutions in the state of Colorado as of March 31, 2008.

Figure 2: CCB’s ADC Concentration as a Percentage of Total Capital Compared to
          Peer Group
                                      600%

                                      500%
        ADC to Total Capital




                                      400%

                                      300%

                                      200%

                                      100%

                                       0%
                                              2004       2005       2006       2007       2008       2009

                                             12/31/04   12/31/05   12/31/06   12/31/07   12/31/08   12/31/09

                                CCB           312%       402%       474%       552%       525%       485%
                                Peer Group    55%        91%        117%       124%       111%       85%




Source: KPMG analysis of UBPRs for CCB.

ADC lending generally involves a greater degree of risk than permanent financing for
finished residences or commercial buildings. Associated risks include adverse changes in
3
  Institutions are assigned to 1 of 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. From 2006 to 2009, CCB’s peer group
consisted of insured commercial banks having assets between $300 million and $1 billion. For 2005, CCB’s
peer group consisted of insured commercial banks having assets between $100 million and
$300 million. For 2004, CCB’s peer group consisted of insured commercial banks having assets between
$50 million and $100 million.

                                                                    I-9
market conditions between the time an ADC loan is originated and the time construction is
completed, as well as the inherent difficulty of accurately estimating the cost of
construction and the value of completed properties in future periods. Due to these and
other risk factors, ADC loans generally require greater effort to effectively evaluate and
monitor than other types of loans.

A key reason why CCB developed a significant exposure to CRE and ADC loans was that
the Board and management had not established CRE and ADC loan limits until after the
September 2008 visitation (when real estate market conditions were continuing to decline).
The April 2010 joint examination report stated that the bank’s loan policy allowed up to
425 percent of the capital to be invested in land and construction loans, of which 175
percent was allowed for land credits. The report noted that these parameters were
excessive. In addition, CCB did not stress test its CRE and ADC loan portfolios as
described in the Joint Guidance (to assess the impact that various economic scenarios
might have on the institution’s asset quality, capital, earnings, and liquidity) until after the
September 2008 visitation. Further, the bank had not developed a viable contingency plan
or management strategies to mitigate the risks associated with its ADC loan concentration
in the event of adverse market conditions.4 Lending limits, stress testing, and contingency
plans are key concentration risk management controls intended to mitigate risks associated
with potential adverse market conditions.

Capital Levels Relative to CRE and ADC Loan Growth

The Joint Guidance states that institutions with CRE concentrations should hold capital
exceeding regulatory minimums and commensurate with the level of risk in their CRE
lending portfolios. In addition, the Examination Manual states that institutions should
maintain capital commensurate with the level and nature of risk to which the institutions
are exposed. The Examination Manual adds that the amount of capital necessary for safety
and soundness purposes may differ significantly from the amount needed to maintain a
Well Capitalized or Adequately Capitalized position for PCA purposes.

Due to the significant costs associated with the bank’s expansion5 and the large provision
expenses that were needed following the downturn in the real estate market, CCB’s
earnings were not sufficient to support the bank’s operations and augment capital. In fact,
examiners determined that the quality of the bank’s earnings were less than satisfactory at
every examination conducted from 2004 until the bank’s failure. As a result, CCB relied
extensively on its parent holding company and shareholders for capital injections to
support loan growth. Notwithstanding these injections, the bank’s capital levels were not
commensurate with the growing risk in the loan portfolio. For example, CCB’s Total

4
  The Joint Guidance recommends that institutions develop appropriate strategies for managing CRE
concentration levels, including a contingency plan to reduce or mitigate concentrations in the event of
adverse market conditions. Such strategies could include, for example, loan participations, loan sales, and
securitizations to mitigate concentration risk. Contingency plans facilitate a proactive (rather than reactive)
approach to dealing with adverse market conditions.
5
  CCB’s expansion costs pertained to such things as opening new branch offices, establishing loan
production offices, developing new departments such as the Wealth Management and Real Estate Mortgage
Departments, and hiring new personnel.

                                                     I-10
Risk-based Capital ratio as of December 31, 2007 was just 3 basis points above the PCA
threshold for Well Capitalized institutions. In addition, the bank’s capital ratios were
consistently below peer group averages, despite CRE and ADC loan concentrations that
were significantly higher than peer group averages. Table 2 illustrates the trend in CCB’s
Total Risk-based Capital ratios relative to its peer group during the years preceding the
bank’s failure.

Table 2: Total Risk-Based Capital Ratios Compared to Peer Group
   Period
                   Bank Ratio             Peer Group Ratio                 Bank Percentile
   Ended
   Dec-06              10.59                     12.89                             14
   Dec-07              10.03                     12.73                              2
   Dec-08              11.13                     12.60                             34
   Dec-09              10.72                     13.17                             14
   Dec-10               4.83                     14.28                              1
Source: UBPRs for CCB.
Note: Data under the percentile column represent the percentile ranking or percentage position of the bank
relative to other banks in the peer group.

Had CCB maintained higher capital ratios commensurate with its risk profile, the
institution’s loan growth may have been constrained, and losses to the DIF may have been
mitigated to some extent.

ADC Loan Losses

At the time of the April 2010 joint examination, CCB’s adversely classified assets were
$225.4 million (or 253 percent of Tier 1 Capital plus the ALLL), up from $56.3 million (or
68 percent of Tier 1 Capital plus the ALLL) at the prior examination. ADC loans
accounted for about $206 million of the $225.4 million in total classifications. By the May
2011 joint examination, adversely classified assets had increased to $354.1 million (or 804
percent of Tier 1 Capital plus the ALLL), with the majority of classifications consisting of
ADC loans. After charging off losses and other assets during the 2011 examination and
accounting for an additional provision of $75 million, examiners determined that the bank
would have negative equity capital of about $63 million, rendering the institution
insolvent.

Funding Strategies

In the years preceding its failure, CCB relied extensively on non-core funding sources,
particularly brokered deposits, Internet deposits, and FHLB advances, to fund its loan
growth and maintain liquidity. When properly managed, non-core funding sources offer a
number of important benefits, such as ready access to funds in national markets when core
deposit growth in local markets lags planned asset growth. However, non-core funding
sources also present potential risks, such as increased volatility when interest rates change
and difficulty accessing funding sources when the financial condition of an institution
deteriorates. In addition, institutions become subject to limitations on the use of brokered
deposits and the interest rates they can offer on deposits when the institutions fall below

                                                    I-11
Well Capitalized. Under distressed financial or economic conditions, institutions could be
required to sell assets at a loss in order to fund deposit withdrawals and other liquidity
needs.

According to the Examination Manual, the net non-core funding dependence ratio is a
measure of the degree to which the bank relies on potentially volatile liabilities, such as,
but not limited to, certificates of deposit over $100,000 and brokered deposits, to fund
long-term earning assets (such as loans that mature in more than 1 year). Generally, the
lower the ratio, the less risk exposure there is for the bank, whereas higher ratios reflect
reliance on funding sources that may not be available in times of financial stress or adverse
changes in market conditions. CCB’s net non-core funding dependence ratio increased
from about 18 percent to about 49 percent from December 31, 2004 to June 30, 2006.
Contributing to this trend was an increase in brokered deposits during the same period
from $5.2 million (or 7 percent of total deposits) to $101.8 million (or 42 percent of total
deposits). Figure 3 illustrates the trend in CCB’s net non-core funding dependence ratio
relative to its peer group during the period 2004 to 2010.

Figure 3: CCB’s Net Non-Core Funding Dependence Ratio Compared to Peer
          Group

            60%

            50%

            40%

            30%

            20%

            10%

             0%
                     2004        2005       2006       2007       2008        2009       2010
                                                    Year-End

                                              CCB             Peer Group

Source: KPMG analysis of UBPRs for CCB.

Adding to the bank’s liquidity risk profile was management’s decision to establish a
$173 million depository relationship with a trust company during the fourth quarter of
2009 that resulted in a single funding concentration of 23 percent of the bank’s deposits.
The deposits pertaining to this relationship were used to replace higher-cost brokered
deposits as they matured. On May 14, 2010, the FDIC determined that these funds were
considered brokered deposits based on the definition of a “deposit broker” in the FDIC
Rules and Regulations.6 The potential volatility associated with this depository
relationship increased CCB’s liquidity risk profile.

6
    See FDIC Rules and Regulations, 12 Code of Federal Regulations 337.6(a)(2) and 337.6(a)(5)(ii)(I).

                                                     I-12
Following the issuance of a Consent Order in September 2010, CCB became subject to
the brokered deposit and interest rate restrictions in the FDIC Rules and Regulations. As
a result, the bank turned to Internet deposits to replace its maturing brokered deposits and
customer deposit withdrawals and, to a lesser extent, to fund advances on required loan
commitments. By May 27, 2011, Internet deposits totaled $461 million (or 65 percent of
total deposits), up from $27 million (or 3.5 percent of total deposits) during the April
2010 joint examination. By the time of the May 2011 joint examination, the bank’s
unsecured lines of credit had been cancelled, and borrowing availability was contingent
upon the pledging of qualified collateral. Examiners considered the bank’s liquidity
position to be critically deficient.

Loan Underwriting, Credit Administration, and Related Monitoring

Examination and visitation reports issued from 2005 to 2008 identified various aspects of
CCB’s loan underwriting, credit administration, and related monitoring practices that
needed improvement, but controls in these areas were determined to be generally
satisfactory as reflected in the “2” ratings that were assigned for Asset Quality. The
April 2009 joint examination assigned a “3” to the Asset Quality component. The April
2010 joint examination assigned a “5” to Asset Quality, and the examination report
described significant weaknesses in CCB’s loan underwriting, credit administration, and
related monitoring. Among other things, the report noted that:

      The internal loan review program and watch list were significantly deficient,
       resulting in a material difference between examiner loan classifications and the
       bank’s watch list.

      The loan policy did not address the appropriate or inappropriate use of interest
       reserves. According to the examination report, the bank placed heavy reliance on
       interest reserves for many loans. However, there was often a lack of adequate
       documentation of the borrower’s capacity to service the debt after the interest
       reserves were depleted. In other instances, the bank made loans to cover the
       interest when the borrower did not have the capacity to service the debt. Such
       practices effectively masked the loan portfolio’s true delinquency level.

      The bank needed to implement prudent guidelines for renewals, extensions, and
       refinancing for all loans, especially problem loans. Examiners determined that
       the bank’s loan workout programs were ineffective and that loan extensions were
       made on liberal terms.

      The real estate appraisal process was deficient, requiring that the bank review its
       appraisal policies and procedures and implement effective oversight procedures
       to ensure that loan officers adhered to such procedures. Prior examination reports
       noted apparent violations pertaining to appraisals.

      The ALLL level and methodology were critically deficient. Examiners
       determined that the ALLL was underfunded by at least $16 million. An

                                            I-13
       underfunded ALLL has the effect of delaying the recognition of problems in the
       loan portfolio.

The April 2010 joint examination report also described an Asset Repositioning Program
implemented by the Board and management that further elevated CCB’s risk profile.
The bank did not seek the FDIC’s advice or consent before implementing this program.
A summary of the program follows.

Asset Repositioning Program

In September 2009, a large volume of CCB’s borrowers began to experience significant
financial stress due to the economic downturn. The borrowers could no longer fund
interest payments and complete real estate projects associated with ADC loans, and many
borrowers were facing foreclosure and bankruptcy. The bank’s executive management,
in consultation with the Board, initiated several loan workout programs. One of these
workout programs was referred to as the Asset Repositioning Program, whereby new
investors assumed the outstanding balances or executed new notes for these troubled
loans.

Although the terms of each repositioning agreement varied, the original borrowers
generally agreed to execute non-recourse notes and transfer property pledged as
collateral to new entities or individuals for a nominal amount. In return, the bank
released many of the original borrowers from liability, obtained non-recourse notes from
new investors, and subordinated its collateral position to enable continued outside
financing of projects, including interest carry, through escrow notes provided by the new
investors. Further, the bank regularly committed to purchase escrow notes senior to the
bank’s lien if projects were not sold or completed by the maturity date.

The April 2010 joint examination report stated that, in general, these loans were granted
with significant underwriting concessions such as subordinated lien positions, high loan-
to-value ratios, non-recourse terms, a lack of financial information, and no equity at risk
for the new investors. Accordingly, examiners adversely classified loans totaling
approximately $68 million under the program during the April 2010 joint examination
and listed an $8.3 million loan relationship under the program as Special Mention.

Other Loan Underwriting and Administration Weaknesses

The May 2011 joint examination report stated that weak loan underwriting and credit
administration practices had contributed to CCB’s losses. Among other things, the report
indicated that management was relying on outdated and inflated appraisals and expressed
concern about the after-effects of the Asset Repositioning Program. At this examination,
adversely classified loans under the program were listed at $14.3 million. Further,
examiners anticipated that more deterioration would surface as new appraisals were
obtained and interest reserves were depleted. The report noted that management’s
optimistic estimate of current losses in the loan portfolio (which was criticized at the
prior examination) would necessitate significant charge-offs, a minimum provision of


                                            I-14
$75 million to the ALLL, and a restatement of the bank’s Call Report filing for the
quarter ended March 31, 2011.


The FDIC’s Supervision of Colorado Capital Bank
The FDIC, in coordination with the CDB, provided ongoing supervisory oversight of CCB
through regular onsite examinations, visitations, and various offsite monitoring activities.
Through its supervisory efforts, the FDIC identified risks in the bank’s operations and
brought these risks to the attention of the institution’s Board and management through
examination and visitation reports, correspondence, and supervisory actions. Such risks
included concerns with Board and management oversight, the bank’s heavy concentrations
in CRE and ADC loans, less than satisfactory earnings, reliance on non-core funding
sources, and weak loan underwriting and credit administration practices.

The following sections detail our analysis of the bank’s supervisory history, supervisory
and enforcement actions, offsite monitoring, PCA activities, and supervisory lessons
learned.

Supervisory History

From February 2004 until CCB’s closing in July 2011, the FDIC and the CDB conducted
seven onsite examinations and three visitations of CCB. The frequency of this onsite
examination activity was consistent with relevant statutory and regulatory requirements.7
Table 3 summarizes key supervisory information pertaining to CCB’s examinations and
visitations.




7
  Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full-scope, on-site examinations of every state non-member bank at least once every
12-month period and allows for 18-month intervals for certain small institutions (i.e., total assets of less than
$500 million) if certain conditions are satisfied.

                                                      I-15
Table 3: Examinations and Visitations for CCB
 Examination or                                                Supervisory
 Visitation Start    Examination or                              Ratings              Informal or Formal Action
       Date            Visitation           Regulator(s)        (UFIRS)*                      Taken**
    2/9/2004          Examination              CDB               222422/2                       None
    9/12/2005         Examination              FDIC              222422/2                       None
   12/11/2006         Examination              CDB               222322/2                       None
    2/19/2008         Examination              FDIC              222322/2                       None
    9/15/2008        CRE Visitation            FDIC          No rating changes                  None
    4/13/2009         Examination           FDIC/CDB             333332/3                MOU - July 21, 2009
    12/7/2009          Visitation              FDIC          No rating changes           MOU – still in effect
                                                                                     Consent Order - September 9,
    4/5/2010           Examination           FDIC/CDB            555555/5                       2010
   11/29/2010           Visitation             FDIC          No rating changes       Consent Order - still in effect
   5/31/2011           Examination           FDIC/CDB            555555/5            Consent Order - still in effect
Source: KPMG analysis of examination and visitation reports and information in the Virtual Supervisory
Information On the Net system (ViSION) for CCB.
* See the report Glossary for a definition of UFIRS, which establishes the CAMELS rating system.
** Informal actions often take the form of a Bank Board Resolution or MOU. Formal enforcement actions
often take the form of a Consent Order or a Supervisory Directive.

Supervisory and Enforcement Actions

Based on the results of the April 2009 joint examination, the FDIC and CDB entered into
an MOU with CCB’s Board on July 21, 2009 to address a number of risk management
issues. Under the terms of the MOU, the Board agreed to (among other things):

       Submit a written plan to the FDIC and CDB to improve the bank’s credit position
        through repayment, amortization, liquidation, additional collateral, improved
        documentation, or other means for each loan or other asset in excess of $200,000
        that was past due more than 90 days, was adversely classified on the bank’s watch
        list, or was adversely classified during the examination.

       Submit to the FDIC and CDB revised loan and credit administration policies and
        procedures that address the deficiencies identified during the examination.

       Eliminate from the bank’s books, by charge-off or collection, all assets or portions
        of assets classified as “loss” during the examination that had not been previously
        collected in full or charged off.

       Maintain an adequate ALLL level in accordance with generally acceptable
        accounting principles (GAAP).

       Conduct an assessment of the bank’s capital needs to ensure that capital is
        maintained at a level commensurate with the level of risk in the bank’s activities.



                                                   I-16
      Develop and submit to the FDIC and CDB a Capital Plan that (among other things)
       incorporates the capital assessment, addresses the capital adequacy guidelines
       defined in the FDIC Rules and Regulations, meets certain capital ratio
       requirements, and includes procedures for notifying the FDIC and CDB of capital
       ratios that fail to meet required minimum levels.

      Submit to the FDIC and CDB a written plan to improve the bank’s liquidity
       position by reducing reliance on volatile funding sources, including a sound
       Contingency Funding Plan.

      Ensure that (1) the bank’s total assets would not increase more than 5 percent
       during any consecutive 3-month period without first submitting a growth plan to
       the FDIC and CDB and obtaining their prior consent and (2) total assets would not
       increase by more than 10 percent annually.

      Provide the FDIC and CDB with quarterly written progress reports detailing the
       actions taken to comply with each provision of the agreement and the
       corresponding results.

Although the MOU addressed key risks at CCB, it did not specifically address the bank’s
CRE and ADC loan concentrations. During the April 2010 joint examination, examiners
determined that bank management had taken a number of actions to address the provisions
of the MOU. However, actions taken in some areas were not adequate. For example,
examiners found that:

      numerous loan policy and credit administration weaknesses remained, especially in
       the areas of CRE lending, appraisals, the Asset Repositioning Program, and the
       ALLL level and methodology;

      the bank’s capital ratios were below the levels required by the MOU; and

      the Contingency Funding Plan was general in nature and not considered adequate.

Based on the results of the April 2010 joint examination, which identified all areas of the
bank to be critically deficient, the FDIC and CDB entered into a Consent Order with
CCB’s Board on September 9, 2010. The Order remained in effect until the bank was
closed in July 2011. Among other things, the Order required CCB to:

      Submit a comprehensive written Capital Plan to the FDIC and CDB that included a
       requirement for the bank to achieve and maintain a Tier 1 Leverage Capital ratio
       and Total Risk-based Capital ratio equal to or greater than 10 percent and
       13 percent, respectively.

      Ensure that the bank’s total assets would not increase more than 5 percent during
       any consecutive 12-month period commencing June 30, 2010 without first
       submitting a growth plan to the FDIC and CDB and obtaining their prior consent.

                                            I-17
      Prepare and adopt a comprehensive Strategic Plan.

      Make (to the extent not previously done so) provisions to the ALLL in an amount
       of at least $16 million and maintain a reasonable ALLL thereafter.

      Submit to the FDIC and CDB a Classified Asset Reduction Plan to reduce any
       remaining assets with a balance of $100,000 or more that were classified as
       Doubtful and Substandard as of April 5, 2010.

      Formulate and submit to the FDIC and CDB a written plan for the reduction and
       collection of delinquent loans.

      Correct all deficiencies with regard to the loans listed as Special Mention during
       the April 2010 joint examination.

      Formulate and submit to the FDIC and CDB a written plan to reduce each of the
       loan concentrations identified during the examination.

      Establish a Loan Review Committee to periodically review the loan portfolio and
       identify and categorize problem credits.

      Establish (after review and comment by the FDIC and CDB) loan policies and
       procedures specifically relating to the Asset Repositioning Program that comply
       with the reporting requirements for troubled debt restructurings and GAAP.

      Increase the Board’s participation in the affairs of the bank by assuming full
       responsibility for the approval of the bank’s policies and objectives and for the
       supervision of the bank’s management, including all of the bank’s activities.

      Develop and submit to the FDIC and CDB for review and comment a written
       liquidity plan.

      Provide the FDIC and CDB with quarterly written progress reports detailing the
       actions taken to comply with each provision of the order and the corresponding
       results.

At the May 2011 joint examination, examiners determined that the overall financial
condition of the bank had deteriorated with unprecedented speed and was unsound.
Furthermore, due to the rapid deterioration in the bank’s condition, compliance was not
achieved with key provisions of the Order, including those pertaining to meeting minimum
capital requirements, funding the ALLL, and reducing adversely classified assets,
delinquency levels, and concentrations.




                                            I-18
Offsite Monitoring

The FDIC has established an offsite review program that is designed to identify emerging
supervisory concerns and potential problems so that bank supervisory strategies can be
adjusted appropriately. Under the program, offsite reviews are performed quarterly for
each bank that appears on the Offsite Review List (ORL).8 Regional RMS management is
responsible for implementing procedures to ensure that offsite review findings are
considered when establishing examination schedules and other supervisory activities.
Offsite reviews must be completed 3½ months after each quarterly Call Report date. This
schedule generally provides 45 days to complete the offsite reviews once Call Report data
are finalized.

The FDIC uses various offsite monitoring tools to help assess the financial condition of
banks. These tools use statistical techniques, Call Report data, and other information to
identify potential risks, such as institutions likely to receive a supervisory downgrade at
the next examination or institutions experiencing rapid growth and/or a funding structure
highly dependent on non-core funding sources. Table 4 identifies the key offsite
monitoring tools that identified risk flags for CCB.




8
 The ORL identifies institutions warranting heightened supervisory oversight. Since the offsite review
program is intended to identify potential emerging problems, the ORL includes only those institutions with a
composite rating of a “1” or “2.”

                                                   I-19
Table 4: CCB’s Offsite Review History
                   Statistical
                   CAMELS
                    Offsite                        Real          Growth
                    Rating                        Estate        Monitoring
   Offsite          System         SCOR-        Stress Test       System         Consistent        Young
 Review Date       (SCOR)A          LagB         (REST)C         (GMS)D          GrowerE         InstitutionF       MultiflagG
  3/31/2005                                          x               x               x                 x                x
   9/30/2005                           x              x               x               x                x                x
  12/31/2005                                          x               x               x                x                x
   9/30/2006                                          x               x               x
   3/31/2008                                          x               x               x
   6/30/2008                                          x               x               x                                 x
   9/30/2008                                          x               x               x                                 x
  12/31/2008                                          x               x               x                                 x
   3/31/2009            x              x              x               x               x                                 x
Source: KPMG analysis of offsite reviews for CCB.
A
  SCOR is a financial model that uses statistical techniques, offsite data, and historical examination results to
measure the likelihood that an institution will receive a CAMELS downgrade at the next examination.
B
  SCOR-lag is a derivation of SCOR that assesses the financial condition of rapidly growing banks. SCOR
ratios used to measure asset quality are likely to be understated at a rapidly growing bank since few loans are
non-performing at origination. A common technique to avoid such an understatement is the use of a lag-ratio.
SCOR-lag uses current period SCOR data and then adjusts the asset quality ratios on a 1-year lag basis.
C
  REST measures exposures to real estate lending.
D
  GMS identifies institutions experiencing rapid growth and/or with a funding structure highly dependent on
non-core funding sources.
E
  Consistent Grower is a cumulative growth score for an institution using up to 20 quarters of GMS scores.
F
  Young Institution identifies institutions that are less than 8 years old.
G
  Multiflag is determined by combining multiple risk measures from various offsite review models.

From March 2005 to March 2009, the FDIC’s offsite review program identified CCB for
offsite review for nine periods. The offsite review documentation explained why the bank
was appearing on the ORL and briefly discussed completed or planned examination
activity. Examiners made some of the following comments during these offsite reviews:

        March 2005. Growth in non-core funding is a factor, and the level of brokered
         deposits increased from zero to $11 million in 6 months.

        September 2005. Risk is considered to be increasing in view of the bank’s
         continued high growth.

        December 2005. Risk levels are considered to be increasing in view of the bank’s
         continued high growth rate and reliance on volatile funds to at least partially fuel
         that growth.




                                                      I-20
      September 2006 and March 2008. The Board continues to implement an
       aggressive growth strategy with emphasis on CRE lending funded by brokered
       deposits.

      September 2005, June 2008, September 2008, and December 2008. Reliance on
       brokered deposits and FHLB advances as a funding source is considered high.

      March 2009. An MOU will be pursued to address deficiencies noted during the
       April 2009 joint examination.

The offsite reviews were conducted in accordance with FDIC policy and, as such, focused
on numerical measures of risk with less emphasis on risk management practices to
mitigate the corresponding risk, such as high ADC and CRE loan concentrations. As a
result, the offsite reviews do not appear to have significantly changed the FDIC’s approach
to supervising and monitoring the bank because when offsite reviews were triggered,
onsite examinations were either recently completed or scheduled to begin relatively soon
thereafter at CCB.

Supervisory Response to CCB’s Board and Management Oversight

While examination reports issued from 2004 to 2008 noted concerns with respect to
CCB’s Board and management oversight and contained recommendations for
improvement, these reports considered Board and management to be generally
satisfactory. Beginning with the April 2009 joint examination report, examiners became
increasingly critical of CCB’s Board and management. Table 5 summarizes comments in
examination reports issued from 2004 to 2009 that pertain to CCB’s Board and
management and their responsibilities.

Table 5: Examiner Comments Pertaining to Board and Management Oversight

 Examination                                     Examiner Comments
  Start Date
   2/9/2004     Although there were significant changes in the bank’s management team and structure,
                 management remains satisfactory. The new management members are tenured and
                 appear capable of operating the bank in a safe and sound manner.
                While overall Board and management oversight remains satisfactory, overall policies
                 and practices have been in transition since the change in control. There were several
                 instances where the bank’s actual practices were not consistent with policies.
                Although the Funds Management Committee was named in September 2003, the
                 committee did not meet until February 2004.
                Management and the Board were not monitoring compliance with Asset Liability
                  Management (ALM) policy guidelines.
                Five apparent violations of laws or regulations or contraventions of policy were noted.
   9/12/2005    Overall Board and management supervision is satisfactory, although continued
                  diligence is warranted in view of the bank’s rapid growth and continued operating
                  losses.
                Management has effectively controlled the risks to the bank, including those
                  pertaining to Liquidity, Asset Quality, and Sensitivity to Market Risk. Capital is
                  maintained at satisfactory levels through stock offerings at the holding company level.
                  Earnings are negative; however, improvement is anticipated.

                                               I-21
Examination                                     Examiner Comments
 Start Date
               Sound underwriting and strong credit administration must be maintained in view of the
                bank’s high loan growth and credit concentrations. Liquidity must also be closely
                monitored as the bank’s level of volatile funding sources is very high.
               It is imperative that a current, detailed strategic plan be in place in view of the bank’s
                significant growth strategy and need for external capital augmentation.
               Management has not established guidelines to identify, limit, and monitor loan
                concentrations. Due to the risks inherent with this type of lending, management is
                encouraged to set parameters and monitor its volume.
               The Board should establish a policy parameter to limit the level of brokered deposits
                in relation to total deposits.
12/11/2006     The directorate and management continue to provide competent administrative
                oversight, remain proactive, and closely monitor primary risk areas in accordance with
                operating policies and procedures.
               While the overall level of asset classifications is considered low, the loan portfolio
                remains relatively unseasoned.
               Loan growth continued at a significant pace funded by brokered deposits and FHLB
                advances.
               The high level of loan documentation exceptions and the bank’s tightening liquidity
                position presented concern.
               Three apparent violations of laws and regulations were cited.
 2/19/2008     Management and Board supervision of the bank are satisfactory. The Board is
                actively involved in the affairs of the bank, and management provides quality
                leadership over the lending function as evidenced by the bank’s sound asset quality
                and overall satisfactory condition.
               While management has implemented sound lending policies and procedures, the
                Board has implemented an aggressive growth strategy with emphasis on CRE loans
                funded largely by brokered deposits. The result is an aggressive and risky profile,
                especially considering recent weaknesses in the housing and construction and
                development markets at the local, regional, and national levels. The level of CRE
                loans and reliance on brokered deposits ranks this bank at the highest percentiles
                nationally and at the state level in comparison to other insured banks. The Board is
                strongly encouraged to implement strategies which reduce the bank’s exposure to the
                real estate market and lessen its reliance on brokered deposits.
               Continued diligence by the Board and management regarding sound underwriting and
                strong credit administration practices must be maintained in view of the high loan
                growth and elevated credit concentrations. Examiners stressed that this was essential
                and warranted emphasis in light of the overall risk profile of the bank and general
                economic conditions.
               The Board should establish a well-defined process to identify and monitor the real
                estate industry concentrations.
               The Board had not formulated a Residential Mortgage Department Policy, and it was
                imperative for them to provide guidance to the mortgage department.
               Capital protection is marginally satisfactory. It was suggested that management
                perform a capital assessment to determine the appropriate level of capital and
                allowance adequacy after considering the volume of its CRE loans.
               Examiners made recommendations to improve the bank’s risk management practices.
 4/13/2009     The Board and management’s ability to operate in a safe and sound manner and in
                accordance with acceptable practices has weakened and requires strengthening.
               Management is proactive in identifying problem loans and in working with borrowers
                regarding resolution strategies.
               The Board and management have established a comprehensive loan policy.
               Overall, credit administration and practices are adequate.
               The Board and management should immediately reduce the bank’s reliance on non-

                                               I-22
 Examination                                      Examiner Comments
  Start Date
                    core funding sources and enhance liquidity contingency planning.
                   It is imperative for the Board and management to enhance and strengthen its ALLL
                    methodology.
                   Improvement is still required in monitoring compliance with CRE parameters
                    established in the loan policy.
                   Examiners made several recommendations to management to strengthen credit
                    administration practices, including appraisal program enhancements.
                   Five apparent violations of laws and regulations or contraventions of policy were
                    identified.
Source: KPMG analysis of examination reports for CCB.

The April 2010 and May 2011 joint examination reports were sharply critical of Board and
management oversight and assigned Management component and composite ratings of
“5.” The significant financial deterioration noted by examiners during those examinations
was a significant factor in determining the ratings. The April 2010 joint examination
report stated that the Board had permitted a high-risk lending strategy in ADC credits
without establishing appropriate limits, adequate controls, or effective policies and
procedures. The report also noted that management had failed to maintain strong capital
and reserves or implement adequate loan underwriting, credit administration, or liquidity
risk management practices. As previously discussed, the September 2010 Consent Order
included a provision requiring increased Board participation in the affairs of the bank. The
May 2011 joint examination report noted that while the bank’s executive management
team had been replaced following the prior examination, the new management and Board
were unable to stem the deterioration in the bank’s condition or implement corrective
measures outlined in the September 2010 Consent Order.

Supervisory Response to CCB’s Aggressive Growth and CRE and ADC Loan
Concentrations

Examination reports issued from 2004 to 2008 identified risks pertaining to CCB’s rapid
loan growth strategy and ensuing concentrations in CRE and, particularly, ADC loans.
These reports contained a number of suggestions and recommendations designed to
improve CCB’s concentration risk management practices. Notwithstanding the risks
identified, examiners determined that CCB’s concentration risk management practices
were generally satisfactory during this period due to various mitigating factors, such as
adequate loan underwriting and credit administration. Accordingly, examiners assigned
Asset Quality component ratings of “2” until the April 2009 joint examination, at which
time, losses in the portfolio became apparent. Table 6 summarizes examiner comments
pertaining to CCB’s aggressive growth and loan concentrations in examination reports
issued from 2004 to 2010.




                                                 I-23
Table 6: Examiner Comments Pertaining to Loan Growth and Concentrations
 Examination        CRE / ADC
    Start        Concentration as                             Examiner Comments
    Date          a Percentage of
                   Total Capital
   2/9/2004        345% / 236%         The bank’s 2004 budget projected a doubling of loan volume.
                        as of          Examiners recommended that the bank monitor concentrations and
                     9/30/2003          report them to the Board at least quarterly.
   9/12/2005       494% / 366%         Continued due diligence is warranted in view of the bank’s rapid
                       as of            growth and continued operating losses.
                    6/30/2005          Management projects substantial loan growth to continue in 2006.
                                       Monitoring and reporting of concentrations of credits is not evident.
                                        Reasonable limits for industry concentrations need to be established
                                        and monitored.
  12/11/2006       609% / 500%         The loan portfolio grew 89 percent during the past 12 months, and
                       as of            continued growth is projected for 2007.
                    9/30/2006          As the majority of expected growth in 2006 was in construction
                                        lending, examiners noted that it was important for management to
                                        have good construction loan policies, procedures, and Board reports
                                        in place to maintain and monitor the credit quality of the loan
                                        portfolio.
   2/19/2008       607% / 552%         The heightened level of CRE concentrations warrants increased
                       as of            management and Board supervision. The Board should promptly
                    12/31/2007          address recommendations in the report to improve risk management
                                        practices in this area. Such recommendations included establishing
                                        limits and sub-limits on ADC loans relative to capital and stress
                                        testing the loan portfolio.
                                       The highest volume in CRE lending is the speculative residential
                                        construction portfolio.
                                       Overall, the CRE concentration is mitigated by good monitoring
                                        procedures, adequate underwriting standards, and satisfactory credit
                                        administration procedures that identify and track the financial
                                        ability of borrowers.
   4/13/2009       639% / 525%         Loan portfolio risk is heightened by the bank’s high level of loans
                       as of            concentrated in CRE.
                    12/31/2008         Management has addressed many of the concentration risk
                                        management program enhancements requested by examiners,
                                        including the establishment of policy limits, the implementation of
                                        stress testing, and Board reporting.
   4/5/2010        605% / 485%         The Board and management actively pursued a rapid CRE growth
                       as of            strategy and failed to establish reasonable risk limits and sub-limits
                    12/31/2009          for CRE loans, especially for higher-risk ADC credits.
                                       Adversely classified loans are almost entirely comprised of ADC
                                        loans.
Source: KPMG analysis of examination reports and UBPRs for CCB.

The May 2011 joint examination report was sharply critical of the bank’s extensive
exposure to CRE and ADC loans and lack of associated risks management practices.

In early 2008, the FDIC conducted an analysis to identify institutions that were at risk
due to their significant exposure to CRE and ADC loans. The analysis was performed in
response to the adverse effect that the downturn in the housing market was having on
construction and real estate development activity at that time. Recognizing that banks
                                                I-24
with large exposures to CRE loans, especially ADC loans, may be negatively affected,
the FDIC analyzed Call Report information to identify banks with concentrated
exposures in CRE and ADC loans that were operating in markets that the FDIC
designated as “distressed” or “at risk.” One of the institutions identified was CCB.

As a result of the analysis, the FDIC conducted a visitation in September 2008 to assess
the current and prospective risks posed by CCB’s CRE concentrations, as well as to assess
the bank’s compliance with the Joint Guidance and FIL-22-2008, Managing CRE
Concentrations in a Challenging Environment. As a result of the visitation, examiners
informed the Board and management that they should take action to address (among other
things) policy, procedural and control weaknesses in Board and management oversight,
portfolio management, credit underwriting standards, and credit risk review functions. At
the joint examination that followed in April 2009, examiners noted that risk in the loan
portfolio was heightened by the bank’s high CRE concentration.

The Examination Manual states that examiners should consider the existence of asset
concentrations, as well as the level and trend of classified, nonaccrual, and delinquent
assets when assessing the Asset Quality component. The Examination Manual further
states that management’s ability to identify, measure, monitor, and control credit risk
should be reflected in the Asset Quality component rating.

The Asset Quality component was rated a “2” from 2004 to 2008. At the April 2009 joint
examination, the Asset Quality rating was downgraded to a “3” and then further
downgraded to a “5” at the April 2010 joint examination.

Supervisory Response to CCB’s Funding Strategies

As noted earlier in this report, the 2003 change in control resulted in a new business
strategy. This new strategy included increasing the bank’s reliance on non-core funding
sources, such as brokered deposits and FHLB advances, to fund its lending and operations.
While this change in funding strategy elevated the bank’s overall liquidity profile,
examiners considered the bank’s liquidity position to be satisfactory until the April 2009
joint examination. As reflected in Table 7, CCB increased its reliance on brokered
deposits from $5.2 million in 2004 to $328 million in 2009, while FHLB advances
increased from $0 in 2004 to $85 million in 2008.




                                            I-25
Table 7: CCB’s Funding Sources

                          Core           Brokered                                  FHLB
       At                                                  Time Deposits
                        Deposits         Deposits                                 Advances
    Year End                                              Above Insurance
                        ($000s)*          ($000s)                                  ($000s)
                                                           Limit ($000s)
 December 2004           $51,863           $5,247             $16,507                  $0
 December 2005           $32,507          $55,429               $71,909                $0
 December 2006           $38,976          $130,172             $155,747             $10,505
 December 2007          $144,233          $162,001             $210,590             $45,948
 December 2008           $83,451          $256,684             $328,116             $84,692
 December 2009          $216,246          $328,052             $256,420             $15,000
 December 2010          $549,353          $227,644             $123,315             $15,000
Source: UBPRs for CCB.
*Core deposits may include some deposits of less than $100,000 obtained through the bank’s use of an
Internet listing service and brokered deposits representing time deposits of less than $100,000.

The Examination Manual states that examiners should consider the current level and
prospective sources of liquidity compared to funding needs, as well as to the adequacy of
funds management practices relative to the institution’s size, complexity, and risk profile.
Table 5 (presented earlier) summarizes examiner comments in examination reports
pertaining to CCB’s funds management practices. From 2004 to 2008, examiners assigned
a rating of “2” to the Liquidity component. The Liquidity rating was first downgraded to a
“3” at the April 2009 joint examination. By the April 2010 joint examination, examiners
downgraded the Liquidity rating to a “5” and noted that liquidity and funds management
practices were critically deficient, as excessive reliance on brokered deposits threatened
the viability of the bank.

Supervisory Response to Loan Underwriting, Credit Administration, and Related
Monitoring

Although examination reports issued from 2004 to 2008 identified aspects of CCB’s loan
underwriting, credit administration, and related monitoring that could be enhanced,
examiners considered risk management practices in these areas to be generally adequate.
Examiners became sharply critical of CCB’s loan underwriting, credit administration, and
related monitoring during the April 2010 joint examination. Among other things,
examiners noted during that examination that CCB failed to promptly recognize
deterioration in the loan portfolio due to weaknesses in such areas as appraisals, ADC loan
administration, and the ALLL. Both the April 2010 and May 2011 joint examination
reports contained numerous recommendations to improve loan underwriting, credit
administration, and related monitoring. In addition, as previously discussed, the July 2009
MOU and September 2010 Consent Order included provisions addressing these areas.

A brief summary of the FDIC’s and CDB’s responses to the significant risks associated
with the Asset Repositioning Program follows.


                                                  I-26
Asset Repositioning Program

The FDIC first learned of the Asset Repositioning Program at the April 2010 joint
examination, at which time examiners were critical of the program. The examination
report stated that loans under the program possessed higher than normal credit risk as
management made significant underwriting concessions, such as subordinated lien
positions, high loan-to-values ratios, non-recourse terms, a lack of financial information,
and no equity at risk for new investors. Examiners adversely classified loans totaling
approximately $68 million under the program during the examination and listed an
$8.3 million loan relationship as Special Mention. Examiners recommended that
management take the following actions with respect to the program:

      engage a qualified third party to perform a fair value analysis on all credits under
       the program and recognize any loss impairment;

      obtain a written accounting opinion from a qualified third party to ensure that
       accounting entries pertaining to the program conform with GAAP and regulatory
       accounting standards;

      obtain and review financial information, tax returns, and credit reports for all
       borrowers under the program as a prudent banking practice; and

      reconsider risk factors in the program’s credits and update all policies and
       procedures to reflect changes in the program.

As previously discussed, the FDIC and CDB included a provision in the September 2010
Consent Order requiring that CCB strengthen its controls pertaining to the Asset
Repositioning Program. According to examiners, the bank ceased making any new loans
under the program following the April 2010 joint examination. Examiners noted that the
Asset Repositioning Program had the effect of deferring losses in the optimistic belief by
bank management that the local real estate market would recover in the short term.

Implementation of PCA

Based on the supervisory actions taken with respect to CCB, the FDIC properly
implemented applicable PCA provisions of section 38.

Table 8 summarizes CCB’s PCA status and any informal or formal actions taken from
2006 through 2011. A chronological description of the changes in the bank’s capital
categories and the FDIC’s implementation of PCA follow the table.




                                            I-27
Table 8: CCB’s Capital Levels
    Examination or        Total          Tier 1        Leverage           PCA Capital Category
      Event Date          Risk-       Risk-Based
                          Based
    Well Capitalized
                          ≥10%            ≥6%               ≥5%
     Threshold
      12/11/2006
                          10.40           9.40              8.89             Well Capitalized
      Examination
       2/19/2008
                          10.01           9.17              8.72             Well Capitalized
      Examination
       4/13/2009
                          11.04           10.23             9.37             Well Capitalized
      Examination
        4/5/2010
                          10.20           8.93              7.74             Well Capitalized
      Examination
        9/9/2010
                           N/A            N/A               N/A          Adequately Capitalized*
     Consent Order
       2/21/2011
                           6.92           5.61              3.73             Undercapitalized
    PCA Notification
       3/29/2011
                           3.50           4.83              2.29     Significantly Undercapitalized**
    PCA Notification
        5/4/2011
                           4.00           2.71              1.90        Critically Undercapitalized
     PCA Directive
Source: KPMG analysis of examination reports and PCA activities for CCB.
*CCB fell to Adequately Capitalized as a result of the Consent Order issued on September 9, 2010.
**CCB fell to Significantly Undercapitalized as a result of amended Call Report Data as of December 31, 2010
and as a result of its failure to submit an acceptable Capital Restoration Plan.

At the time of the September 2010 Order, CCB’s capital ratios exceeded the levels for
Well Capitalized banks. However, Part 325 Subpart B, Prompt Corrective Action, of the
FDIC Rules and Regulations states that the Well Capitalized status indicates a bank
(1) meets the capital ratios and (2) is not subject to any written agreement, Order, capital
directive, or PCA Directive to meet and maintain a specific capital level. Accordingly,
issuance of the September 2010 Order had the effect of lowering the bank’s PCA capital
category from Well Capitalized to Adequately Capitalized.

Under the Order, effective September 9, 2010, the bank was required to submit a written
Capital Plan (Plan) within 60 days of the Order. The due date for the Plan was
November 9, 2010. The bank requested, and the FDIC Regional Director and CDB
Commissioner approved, a 15-day extension to November 24, 2010. The bank submitted
the Plan within the extended deadline. The bank’s Plan to increase capital included
reducing assets, improving income, and raising capital through a stock offering. A
contingency plan9 within the Capital Plan required the bank to seek an acquirer for the
holding company and/or bank if the requirements of the Order were not met.

In a letter dated February 21, 2011, the FDIC notified CCB’s Board that the bank was
Undercapitalized based on the December 31, 2010 Call Report. Within the timeframe set

9
 As required by the Order, the Capital Plan included a contingency plan in the event that the bank
(1) failed to maintain the minimum capital ratios required by the Order, (2) failed to submit an acceptable
capital plan, or (3) failed to implement or adhere to a capital plan to which no written objection was provided
by the Supervisory Authorities.

                                                     I-28
forth in the notice, the bank submitted a Capital Restoration Plan on March 15, 2011. On
March 29, 2011, the FDIC notified the bank that its Capital Restoration Plan did not
comply with section 38 and was not acceptable. As the bank failed to submit an
acceptable Capital Restoration Plan, the provisions applicable to a Significantly
Undercapitalized institution applied to the bank. In the same communication, the FDIC
issued a Notice of Intent to Issue a Supervisory PCA Directive. Further, during the week
of March 18, 2011, the bank became aware of an accounting adjustment that required an
amendment to its year-end 2010 Call Report, causing the bank’s capital level to drop to
Significantly Undercapitalized as of December 31, 2010.

On April 21, 2011, CCB provided the FDIC with an Amended Capital Restoration Plan.
On April 27, 2011, the FDIC notified the bank that the Amended Capital Restoration Plan
was essentially the same as what was submitted on March 15, 2011 and remained
unacceptable. On May 4, 2011, the FDIC sent the bank a Supervisory PCA Directive and
notified the bank of its Critically Undercapitalized status based on the March 31, 2011
Call Report. The Tier 1 Capital and Total Risk-Based Capital ratios after the May 2011
joint examination were negative 8.60 and negative 12.86 percent, respectively, and the
bank had not been successful in implementing the Amended Capital Restoration Plan.
Following the May 31, 2011 joint examination, the institution continued to be Critically
Undercapitalized for PCA purposes, and the bank failed on July 8, 2011.

Supervisory Lessons Learned

The perspectives gained from the failure of CCB are not unique. Like many other
institutions that failed in recent years, CCB developed a significant exposure to CRE and
ADC loans at a time when the bank’s financial condition and lending markets were
generally favorable. This exposure made the bank vulnerable to a sustained downturn in
the real estate market. In retrospect, a more forward-looking supervisory approach to the
risk profile and weak risk management practices identified by examiners during earlier
examinations may have been warranted, considering CCB’s:

      significant exposure to CRE and ADC loans and their associated vulnerability to
       economic cycles;

      lack of concentration risk management practices;

      rapid loan growth supported by non-core funds, such as brokered deposits; and

      capital levels in relation to its risk profile.

A stronger supervisory tenor during earlier examinations may have influenced CCB to
establish and maintain stronger risk management practices, such as prudent limits on its
ADC loan concentration and non-core funds and higher levels of capital, which could have
better positioned CCB to work through the loan deterioration that developed as the
Colorado real estate market deteriorated. In addition, it is our view that while earlier
composite and component ratings in the areas of Management, Asset Quality, Liquidity,

                                               I-29
and Capital reflected the financial condition of CCB, the ratings did not appear to fully
reflect the risks present at that time.

Examiners made a number of suggestions and recommendations to address CCB’s risk
management practices at examinations conducted from 2004 to 2008. However, the
actions taken by the Board and management to address the suggestions and
recommendations were not adequate. In addition, the FDIC and CDB issued an MOU in
July 2009 and a Consent Order in September 2010, but by that time, the institution’s
lending markets were rapidly deteriorating, making remedial efforts difficult.

In December 2010, the OIG issued an audit report, entitled, Follow-up Audit of FDIC
Supervision Program Enhancements (OIG Audit Report No. MLR-11-010) for the purpose
of identifying trends in recent bank failures and determining the FDIC’s actions to enhance
its supervision program. The audit report notes that the CAMELS ratings for failed
institutions reflected greater emphasis on a bank’s financial condition and levels of capital
and earnings, rather than the bank’s ability to successfully mitigate identified risks. The
audit report further states that risky behaviors that do not seem to have had a sufficient
impact on CAMELS ratings included, but were not limited to: (1) pursuit of aggressive
growth in CRE and ADC loans, (2) excessive levels of asset concentration with little risk
mitigation, and (3) reliance on wholesale funding to fund asset growth. Such findings are
consistent with the results of our assessment of the supervisory approach for CCB.

The FDIC informed us that it has taken a number of actions to enhance its supervision
program based on the lessons learned from failures during the financial crisis.
With respect to the issues discussed in this report, the FDIC has, among other things,
issued FIL-22-2008, Managing CRE Concentrations in a Challenging Environment, which
reiterated broad supervisory expectations with regard to managing risk associated with
CRE and ADC concentrations. Specifically, the guidance re-emphasized the importance
of strong capital and loan loss allowance levels and robust credit risk management
practices. The FDIC has also issued FIL-84-2008, entitled, Liquidity Risk Management,
which highlights the importance of (among other things) contingency funding plans in
addressing relevant stress events. Further, the FDIC issued FIL-13-2009, The Use of
Volatile or Special Funding Sources by Financial Institutions that are in a Weakened
Condition, which heightened its supervision of institutions with aggressive growth
strategies or excessive reliance on volatile funding sources.

Additionally, the FDIC completed a training initiative in 2010 for its entire supervisory
workforce that emphasized the need to assess a bank’s risk profile using forward-looking
supervision. The training addressed the importance of considering management practices
as well as current financial performance or trends when assigning ratings, consistent with
existing examination guidance. Further, on January 26, 2010, the FDIC issued guidance to
its examiners that defines procedures for better ensuring that examiner concerns and
recommendations are appropriately tracked and addressed.10

10
 RMS Regional Directors Memorandum, entitled, Matters Requiring Board Attention (Transmittal
No. 2010-003).


                                                I-30
                                                                            Appendix 1

                    Objectives, Scope, and Methodology

Objectives

We performed this performance audit to satisfy the requirements of section 38(k) of the
FDI Act as amended by the Financial Reform Act, which provides, in general, that if the
DIF incurs a material loss with respect to an insured depository institution, the Inspector
General of the appropriate federal banking agency shall prepare a report to that agency,
reviewing the agency’s supervision of the institution. The Financial Reform Act amends
section 38(k) of the FDI Act by increasing the MLR threshold from $25 million to
$200 million for losses that occur for the period January 1, 2010 through December 31,
2011. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Consistent with the Financial Reform and FDI Act provisions described above, the
objectives of this MLR were to (1) determine the causes of CCB’s failure and the
resulting loss to the DIF and (2) evaluate the FDIC’s supervision of CCB, including the
FDIC’s implementation of the PCA provisions of section 38 of the FDI Act.

Our report contains no recommendations. Instead, as major causes, trends, and common
characteristics of institution failures are identified in MLRs, the FDIC OIG
communicates those to FDIC management for its consideration. As resources allow, the
FDIC OIG conducts more comprehensive reviews of specific aspects of the FDIC’s
supervision program and makes recommendations as warranted.

We conducted this performance audit from October 2011 to January 2012 in accordance
with GAGAS. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Scope and Methodology

The scope of this audit included an analysis of CCB from February 2004 until its failure
on July 8, 2011. Our review also entailed an evaluation of the regulatory supervision of
the institution over the same period.

To achieve the objectives, we performed the following procedures and utilized the
following techniques:

        Analyzed examination and visitation reports prepared by FDIC and CDB
         examiners from 2004 to 2011.

        Reviewed the following documentation:


                                            I-31
                                                                               Appendix 1

              Financial institution data and correspondence maintained at the RMS Dallas
               Regional Office and Denver Field Office, as provided to KPMG by RMS.

              Reports prepared by the Division of Resolutions and Receiverships and RMS
               relating to CCB’s closure.

              Pertinent RMS policies and procedures.

        Interviewed relevant FDIC officials who had supervisory responsibilities
         pertaining to CCB, which included RMS regional officials from the Dallas
         Regional Office and examination staff in the Denver Field Office.

        Interviewed appropriate CDB officials in Denver, Colorado, to discuss the
         historical perspective of the institution, its examinations, and other activities
         regarding CDB’s supervision of the bank.

        Researched various banking laws and regulations.

KPMG relied primarily upon the materials provided by the FDIC OIG and RMS,
including information and other data collected during interviews. KPMG did not perform
specific audit procedures to ensure the information and data were complete and accurate.
KPMG is, however, aware that Circular 12000.1, Cooperation with the Office of
Inspector General, dated September 28, 2007, requires that all FDIC employees,
contractors, and subcontractors cooperate with the OIG in order for the OIG to carry out
its statutory mandate. To that end, all employees, contractors, and subcontractors must:

     (1) Provide authorized representatives of the OIG immediate and unrestricted
access to all Corporation, receivership, contractor, and subcontractor personnel, facilities,
equipment, hard copy and electronic records, files, information systems, and other
sources of information when requested during the course of their official duties.

     (2) Provide authorized representatives of the OIG immediate and unrestricted
access to any records or material available to any part of the FDIC.

Interviews were conducted to gain a better understanding of decisions made regarding the
supervisory approach to the institution and to clarify information and conclusions
contained in examination reports and other relevant supervisory correspondence between
the FDIC, CDB, and the bank. KPMG relied on the information provided in the
interviews without conducting additional specific audit procedures to test such
information.




                                              I-32
                                                                            Appendix 1

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess RMS’s overall internal control or
management control structure. We relied on information in the FDIC’s systems, reports,
and interviews of examiners to understand CCB’s management controls pertaining to the
causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination and visitation reports, correspondence files,
and testimonial evidence, to corroborate data obtained from systems that were used to
support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this MLR, we did not assess the strengths and weaknesses
of RMS’s annual performance plan in meeting the requirements of the Results Act
because such an assessment is not part of the audit objectives. RMS compliance with the
Results Act is reviewed in OIG’s program audits of RMS operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act and the FDIC’s Rules and Regulations.
The results of our tests are discussed, where appropriate, in this report. Additionally, we
assessed the risk of fraud and abuse related to our objectives in the course of evaluating
audit evidence.

Related Coverage of Financial Institution Failures

The FDIC provided us with a memorandum issued by the OIG on May 1, 2009. The
memorandum outlined major causes, trends, and common characteristics of FDIC-
supervised financial institution failures that had resulted in a material loss to the DIF.
The memorandum also indicated that the OIG planned to provide more comprehensive
coverage of those issues and make related recommendations, when appropriate. Since
May 1, 2009, the OIG has issued additional MLR reports related to failures of FDIC-
supervised institutions, and these reports can be found at www.fdicig.gov. As discussed
earlier in this report, the OIG issued an audit report, entitled, Follow-up Audit of FDIC
Supervision Program Enhancements (Report No. MLR-11-010), in December 2010. The
objectives of the audit were to (1) determine the actions that the FDIC has taken to
enhance its supervision program since May 2009, including those specifically in response
to the May 2009 memorandum, and (2) identify trends and issues that have emerged from
subsequent MLRs.




                                            I-33
                                                                           Appendix 1

Further, with respect to more in-depth coverage of specific issues, the OIGs of the FDIC,
the Department of the Treasury, and the Board of Governors of the Federal Reserve
System issued an evaluation report in September 2011, entitled, Evaluation of Prompt
Regulatory Action Implementation (Report No. EVAL-11-006), which assessed the role
and Federal regulators’ use of the Prompt Regulatory Action provisions of the FDI Act
(section 38, PCA, and section 39, Standards for Safety and Soundness) in the banking
crisis.

Additionally, the FDIC OIG has informed us that it began an evaluation in July 2011 to
study the characteristics and related supervisory approaches that may have prevented
FDIC-supervised institutions with significant ADC loan concentrations from being
designated as problem banks or failing during the recent financial crisis. Most recently,
in January 2012, the President signed Public Law 112-88 (H.R. 2056, as amended),
which requires the Inspector General of the FDIC to conduct a comprehensive study on
the impact of the failure of insured depository institutions. Among the reviews initiated
in response to this law, the FDIC OIG has initiated reviews in the following areas of bank
supervision:

          evaluation and use of appraisals,
          implementation of FDIC policy statement on CRE loan workouts,
          risk management enforcement actions, and
          examiner assessment of capital.

The Inspector General is required to submit a report on the results of the study and any
related recommendations to Congress by January 3, 2013.




                                           I-34
                                                                          Appendix 2

                          Glossary of Terms


          Term                                       Definition
Acquisition,             ADC loans are a component of CRE that provide funding for
Development, and         acquiring and developing land for future construction, and that
Construction             provide interim financing for constructing residential or
(ADC) Loans              commercial structures.

Adversely Classified     Assets subject to criticism and/or comment in an examination
Assets                   report. Adversely classified assets are allocated on the basis of risk
                         (lowest to highest) into three categories: Substandard, Doubtful,
                         and Loss.

Allowance for Loan and   Federally insured depository institutions must maintain an ALLL
Lease Losses (ALLL)      that is adequate to absorb the estimated loan losses associated with
                         the loan and lease portfolio (including all binding commitments to
                         lend). To the extent not provided for in a separate liability
                         account, the ALLL should also be sufficient to absorb estimated
                         loan losses associated with off-balance sheet loan instruments such
                         as standby letters of credit.

Call Report              Consolidated Reports of Condition and Income (also known as
                         Call Reports) are reports that are required to be filed by every
                         national bank, state member bank, and insured nonmember bank
                         pursuant to the FDI Act. These reports are used to calculate
                         deposit insurance assessments and monitor the condition,
                         performance, and risk profile of individual banks and the banking
                         industry.

Commercial Real Estate   CRE loans are land development and construction loans (including
(CRE) Loans              1-to-4 family residential and commercial construction loans) and
                         other land loans. CRE loans also include loans secured by
                         multifamily property and nonfarm nonresidential property, where
                         the primary source of repayment is derived from rental income
                         associated with the property or the proceeds of the sale,
                         refinancing, or permanent financing of the property.
Concentration            A concentration is a significantly large volume of economically
                         related assets that an institution has advanced or committed to a
                         certain industry, person, entity, or affiliated group. These assets
                         may, in the aggregate, present a substantial risk to the safety and
                         soundness of the institution.

Consent Order            A formal enforcement action issued by financial institution
                         regulators to a bank or affiliated party to stop an unsafe or unsound
                         practice or violation. A Consent Order may be terminated by the
                         regulators when they have determined that the bank’s condition
                         has significantly improved and the action is no longer needed or
                         the bank has materially complied with its terms.


                                      I-35
                                                                      Appendix 2

         Term                                     Definition
Federal Home Loan     FHLBs provide long- and short-term advances (loans) to their
Bank (FHLB)           members. Advances are primarily collateralized by residential
                      mortgage loans, and government and agency securities.
                      Community and financial institutions may pledge small business,
                      small farm, and small agri-business loans as collateral for
                      advances. Advances are priced at a small spread over comparable
                      U.S. Department of the Treasury obligations.
Material Loss         As defined by section 38(k)(2)(B) of the FDI Act, and as amended
                      by the Dodd-Frank Wall Street Reform and Consumer Protection
                      Act, for the period beginning January 1, 2010 and ending
                      December 31, 2011, a material loss is defined as any estimated loss
                      to the DIF in excess of $200 million.

Memorandum of         A Memorandum of Understanding is an informal agreement
Understanding (MOU)   between the institution and the FDIC, which is signed by both
                      parties. The State Authority may also be party to the agreement.
                      MOUs are designed to address and correct identified weaknesses
                      in an institution’s condition.

Offsite Review        The FDIC’s Offsite Review Program is designed to identify a
Program               bank’s emerging supervisory concerns and potential problems so
                      that supervisory strategies can be adjusted appropriately. Offsite
                      reviews are performed quarterly for each bank that appears on the
                      ORL. Regional management is responsible for implementing
                      procedures to ensure that offsite review findings are factored into
                      examination schedules and other supervisory activities.

Peer Group            Institutions are assigned to one of 15 peer groups based on asset
                      size, number of branches, and whether the institution is located in a
                      metropolitan or non-metropolitan area.
Prompt Corrective     The purpose of PCA is to resolve the problems of insured
Action (PCA)          depository institutions at the least possible long-term cost to the
                      Deposit Insurance Fund. Part 325, subpart B, of the FDIC Rules
                      and Regulations, 12 Code of Federal Regulations, section 325.101,
                      et. seq., implements section 38, Prompt Corrective Action, of the
                      FDI Act, 12 United States Code, Section 1831(o), by establishing a
                      framework for determining capital adequacy and taking
                      supervisory actions against depository institutions that are in an
                      unsafe or unsound condition. The following terms are used to
                      describe capital adequacy: (1) Well Capitalized, (2) Adequately
                      Capitalized, (3) Undercapitalized, (4) Significantly
                      Undercapitalized, and (5) Critically Undercapitalized.

                      A PCA Directive is a formal enforcement action seeking corrective
                      action or compliance with the PCA statute with respect to an
                      institution that falls within any of the three categories of
                      undercapitalized institutions.


                                   I-36
                                                                            Appendix 2

          Term                                          Definition
Risk-Based Capital         A “supplemental” capital standard under Part 325 of the FDIC
                           Rules and Regulations. Under the risk-based capital framework, a
                           bank’s qualifying total capital base consists of two types of capital
                           elements, “core capital” (Tier 1) and “supplementary capital”
                           (Tier 2).
Risk-Based Capital Rules   Part 325 Appendix A—Statement of Policy on Risk-Based
                           Capital—defines the FDIC’s risk-based capital rules. Appendix A
                           states an institution’s balance sheet assets and credit equivalent
                           amounts of off-balance sheet items are assigned to broad risk
                           categories according to the obligor, or, if relevant, the guarantor or
                           the nature of the collateral. The aggregate dollar amount in each
                           category is then multiplied by the risk weight assigned to that
                           category. The resulting weighted values from each of the four risk
                           categories are added together, and this sum is the risk-weighted
                           assets total that, as adjusted, comprises the denominator of the risk-
                           based capital ratio. The institution’s qualifying total capital base is
                           the numerator of the ratio.
Special Mention Assets     A Special Mention asset has potential weaknesses that deserve
                           management's close attention. If left uncorrected, these potential
                           weaknesses may result in deterioration of the repayment prospects
                           for the asset or in the institutions credit position at some future
                           date. Special Mention assets are not adversely classified and do
                           not expose an institution to sufficient risk to warrant adverse
                           classification.
Tier 1 Capital             Defined in Part 325 of the FDIC Rules and Regulations, 12 Code
                           of Federal Regulations, section 325.2(v), as
                           The sum of:
                           • Common stockholder’s equity (common stock and related
                           surplus, undivided profits, disclosed capital reserves, foreign
                           currency translation adjustments, less net unrealized losses on
                           available-for-sale securities with readily determinable market
                           values);
                           • Non-cumulative perpetual preferred stock; and
                           • Minority interest in consolidated subsidiaries;
                           Minus:
                           • Certain intangible assets;
                           • Identified losses;
                           • Investments in securities subsidiaries subject to section 337.4; and
                           • Deferred tax assets in excess of the limit set forth in section
                           325.5(g).
Uniform Bank               The UBPR is an analysis of financial institution financial data and
Performance Report         ratios that includes extensive comparisons to peer group
(UBPR)                     performance. The report is produced by the Federal Financial
                           Institutions Examination Council for the use of banking
                           supervisors, bankers, and the general public and is produced
                           quarterly from Call Report data submitted by banks.



                                        I-37
                                                                     Appendix 2

          Term                                     Definition
Uniform Financial     Financial institution regulators and examiners use the UFIRS to
Institutions Rating   evaluate a bank’s performance in six components represented by
System (UFIRS)        the CAMELS acronym: Capital adequacy, Asset quality,
                      Management practices, Earnings performance, Liquidity position,
                      and Sensitivity to market risk. Each component, and an overall
                      composite, is assigned a rating of “1” through “5,” with “1” having
                      the least regulatory concern and “5” having the greatest concern.




                                   I-38
                                                                            Appendix 3

                                     Acronyms


ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
ALM      Asset Liability Management
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to Market
         Risk
CCB      Colorado Capital Bank
CDB      Colorado Division of Banking
CEO      Chief Executive Officer
CRE      Commercial Real Estate
DIF      Deposit Insurance Fund
FDI      Federal Deposit Insurance
FDIC     Federal Deposit Insurance Corporation
FHLB     Federal Home Loan Bank
FIL      Financial Institution Letter
GAAP     Generally Accepted Accounting Principles
GAGAS    Generally Accepted Government Auditing Standards
GMS      Growth Monitoring System
MLR      Material Loss Review
MOU      Memorandum of Understanding
OIG      Office of Inspector General
ORL      Offsite Review List
PCA      Prompt Corrective Action
REST     Real Estate Stress Test
RMS      Division of Risk Management Supervision
SCOR     Statistical CAMELS Offsite Rating
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                                         I-39
               Part II

OIG Evaluation of Management Response
OIG Evaluation of Management Response
Subsequent to the issuance of KPMG’s draft report, RMS officials provided additional
information for KPMG’s consideration, and KPMG revised its report to reflect this
information, as appropriate. On February 16, 2012, the RMS Director provided a written
response to a draft of this report. That response is provided in its entirety on page II-2 of
this report.

In the response, the RMS Director reiterated the causes of CCB’s failure and the
supervisory activities described in the report. Further, RMS stated that it has recognized
the threat that institutions with high-risk profiles, such as CCB, pose to the DIF and
issued to FDIC-supervised institutions a 2008 FIL, entitled, Managing Commercial Real
Estate Concentrations in a Challenging Environment. This FIL re-emphasized the
importance of robust credit risk management practices for institutions with concentrated
CRE exposures and set forth broad supervisory expectations. Additionally, RMS issued a
2009 FIL, entitled, The Use of Volatile or Special Funding Sources by Financial
Institutions That are in a Weakened Condition. According to RMS, this FIL heightened
its supervision of institutions with aggressive growth strategies or excessive reliance on
volatile funding sources.




                                             II-1
                  CORPORATION COMMENTS
_____________________________________________________________




Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                                Division of Risk Management Supervision

                                                                                        February 16, 2012

TO:                  Stephen Beard
                     Assistant Inspector General for Audits

                        /Signed/
FROM:                Sandra L. Thompson
                     Director

SUBJECT:             Draft Audit Report Entitled, Material Loss Review of Colorado Capital Bank, Castle
                     Rock, Colorado

 Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-Frank
 Wall Street Reform and Consumer Protection Act, the Federal Deposit Insurance Corporation’s
 (FDIC) Office of Inspector General (OIG) conducted a Material Loss Review of Colorado Capital
 Bank (CCB), which failed on July 8, 2011. This memorandum is the response of the Division of
 Risk Management Supervision (RMS) to the OIG’s Draft Report received on January 20, 2012.

 CCB failed primarily because its Board and management did not effectively manage the risks
 associated with loan growth and concentrations in commercial real estate (CRE) and acquisition,
 development and construction (ADC) loans. Lax oversight contributed to asset quality problems
 that developed when CCB’s lending markets declined. In addition, CCB did not maintain capital at
 levels that were commensurate with the increasing risk profile. CCB relied on noncore funding
 sources that included brokered deposits, Internet deposits, and Federal Home Loan Bank advances,
 in addition to capital injections from the holding company to support loan growth. By April 2009,
 CCB’s loan portfolio had significantly deteriorated, requiring increases in provisions for loan losses
 that depleted earnings, eroded capital, and strained liquidity. CCB was unable to raise additional
 capital to sustain safe and sound operations.

 From 2004 to 2011, the FDIC and the Colorado Division of Banking (CDB) conducted seven onsite
 risk management examinations, onsite visitations, and offsite monitoring. Examiners identified key
 risks in CCB’s operations, brought these to the attention of the Board and management, and made
 recommendations for improvement. However, CCB’s Board and management did not take
 adequate steps to address the weaknesses and in 2009, examiners downgraded CCB and issued a
 Memorandum of Understanding. The 2010 joint examination noted that all areas were critically
 deficient; and examiners further downgraded CCB and issued a Consent Order.

 RMS has recognized the threat that institutions with high risk profiles, such as CCB, pose to the
 Deposit Insurance Fund and issued to FDIC-supervised institutions a Financial Institution Letter
 (FIL) in 2008 entitled, Managing Commercial Real Estate Concentrations in a Challenging
 Environment. This FIL re-emphasized the importance of robust credit risk management practices
 for institutions with concentrated CRE exposures and set forth broad supervisory expectations.
 Additionally, RMS issued a FIL in 2009 entitled, The Use of Volatile or Special Funding Sources
 by Financial Institutions That Are in a Weakened Condition. This FIL heightened our supervision
 of institutions with aggressive growth strategies or excessive reliance on volatile funding sources.

 Thank you for the opportunity to review and comment on the Report.




                                                    II-2
